Report No. DODIG-2013-104                July 16, 2013




    DOD Oversight Improvements Are Needed on the
       Contractor Accounting System for the Army's
   Cost-Reimbursable Stryker Logistics Support Contract
Additional Copies
To obtain additional copies of this report, visit the Department of Defense Inspector General
website at http://www.dodig.mil/pubs/index.cfm, or contact the Secondary Reports Distribution
Unit at auditnet@dodig.mil.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for Auditing at
auditnet@dodig.mil or by mail:

                      Department of Defense Office of Inspector General
                      Office of the Deputy Inspector General for Auditing
                      ATTN: Audit Suggestions/13F25-04
                      4800 Mark Center Drive
                      Alexandria, VA 22350-1500




Acronyms
ACO                           Administrative Contracting Officer
ADA                           Antideficiency Act
CLIN                          Contract Line Item Number
CLS                           Contractor Logistics Support
DCAA                          Defense Contract Audit Agency
DCMA                          Defense Contract Management Agency
DFARS PGI                     Defense Federal Acquisition Regulation Supplement,
                                Procedure, Guidance, and Instruction
DoD FMR                       DoD Financial Management Regulation
DPAP                          Defense Procurement and Acquisition Policy
FAR                           Federal Acquisition Regulation
GDLS                          General Dynamics Land System
PCO                           Procuring Contracting Officer
PEO                           Program Executive Officer
PMO                           Project Management Office
PWGSC                         Public Works and Government Services, Canada
                                 INSPECTOR GENERAL
                                  DEPARTMENT OF DEFENSE
                                  4800 MARK CENTER DRIVE
                               ALEXANDRIA, VIRGINIA 22350-1500




                                                                             July 16, 20 l3

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE ACQUISITION,
                 TECHNOLOGY, AND LOGISTICS
              AUDITOR GENERAL, DEPARTMENT OF THE ARMY
              DIRECTOR, DEFENSE CONTRACT MANAGEMENT
                 AGENCY

SUBJECT: DoD Oversight Improvements Are Needed on the Contractor Accounting
         System for the Army's Cost-Reimbursable Stryker Logistics Support
         Contract (Report No. DODIG-2013-104)

We are providing this report for your information and use. We found that the Army and
the Defense Contract Management Agency did not identify contractor accounting system
weaknesses on the Stryker cost-reimbursable contract, valued at $1.6 billion. As a result,
the Army was potentially billed for as much as $866.1 million in reimbursable costs that
were charged to the incorrect contract line items and fiscal appropriation. This report is
the third ofthree reports on the effectiveness of the contractor logistics support strategy
for the Stryker family of vehicles.

We considered management comments on a draft of this report when preparing the final
report. Comments from the Director, Defense Procurement and Acquisition Policy; the
Program Executive Officer Ground Combat Systems; and the Director, Defense Contract
Management Agency conformed to the requirements of DoD Directive 7650.3; therefore,
additional comments were not required.

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 604-9077 (DSN 664-9077).




                                            ff.c eline L.    Wic:t.tf~
                                              Ass stant Inspector General
                                              Acquisition, Parts, and Inventory
Report No. DODIG-2013-104 (Project No. D2011-D000CH-0032.002)              July 16, 2013


               Results in Brief: DoD Oversight
               Improvements Are Needed on the Contractor
               Accounting System for the Army’s Cost-
               Reimbursable Stryker Logistics
               Support Contract
                                                         item numbers and fiscal appropriations.
What We Did                                              Additionally, PMO Stryker risked potentially
We evaluated the effectiveness of the contractor         violating the Antideficiency Act (ADA) by
logistics support (CLS) strategy for the Stryker         paying the misapplied charges. Further, as of
family of vehicles. This report is the third in a        February 2013, PMO Stryker paid
series of three reports and addresses contractor         approximately $1.5 billion on the Stryker CLS
billings. The first report addressed contract type       contract without verifying that GDLS-Canada’s
and performance metrics. The second report               portion of the reimbursable costs was accurate.
addressed controls over Government property.
                                                         What We Recommend
What We Found                                            Among other recommendations, the Director,
The Project Management Office Stryker                    Defense Procurement and Acquisition Policy
Brigade Combat Team (PMO Stryker) and                    should continue to negotiate an agreement
Defense Contract Management Agency                       between the U.S. and Canadian governments
(DCMA)-Detroit officials did not verify that             that allows PWGSC to perform audit support
General Dynamics Land Systems                            services that comply with applicable U.S. fiscal
(GDLS)-Canada’s accounting system was                    laws and accounting standards on U.S. contracts
adequate on the cost-reimbursable services               with Canadian companies. Additionally, the
contract for logistics support of Stryker                Director, DCMA should request that PWGSC
vehicles. This condition occurred because PMO            review GDLS-Canada accounting system for
Stryker and DCMA-Detroit did not establish an            adequacy by verifying that actual costs are
adequate system of internal controls to verify           tracked to the appropriate project tasks and
that the billing system for vouchers reconciled          billed to the proper appropriation. Further,
to the appropriate cost accounts. Additionally,          PMO Stryker, with support from the Army
due to inadequately defined audit standards,             Contracting Command-Warren, should report
DCMA-Detroit did not coordinate with Public              any potential ADA violations to the Assistant
Works and Government Services, Canada                    Secretary of the Army (Financial Management
(PWGSC) to develop adequate verification                 and Comptroller).
procedures for GDLS-Canada’s material
charges on its consolidated interim vouchers.            Management Comments and
                                                         Our Response
As a result, GDLS-Canada potentially charged             Management comments were responsive. See
as much as $866.8 million of incurred                    the Recommendations Table on the next page.
reimbursable costs to the incorrect contract line



                                                     i
Report No. DODIG-2013-104 (Project No. D2011-D000CH-0032.002)      July 16, 2013



Recommendations Table
        Management               Recommendations          No Additional
                                Requiring Comment       Comments Required
Director, Defense Procurement
                                                                    1
and Acquisition Policy
Program Executive Officer
                                                                3.a and 3.b
Ground Combat Systems
Director, Defense Contract
                                                                2.a and 2.b
Management Agency




                                      ii
Table of Contents

Introduction                                                               1

      Objectives                                                           1
      Background                                                           1
      Review of Internal Controls Over Interim Vouchers                    5

Finding. Oversight Improvements Are Needed for General Dynamics Land
  Systems-Canada’s Accounting System                                       6

      Structure of Contract Delivery Order 0019                            7
      Adequacy of the Contractor’s Accounting System Needed Verification   7
      GDLS-Canada’s Interim Vouchers Did Not Reconcile to the
        Appropriate Cost Accounts                                          8
      DCMA and PWGSC Coordination of Canadian Cost Verification
        Procedures Was Inadequate                                          16
      Management Comments on the Finding and Our Response                  21
      Recommendations, Management Comments, and Our Response               22

Appendix. Scope and Methodology                                            25

      Interviews and Documentation                                         25
      Use of Computer-Processed Data                                       26
      Prior Coverage                                                       26


Management Comments

      Defense Procurement and Acquisition Policy                           27
      Department of the Army                                               30
      Defense Contract Management Agency                                   36
Introduction
Objectives
The overall objective of the audit was to evaluate the effectiveness of the contractor
logistics support (CLS) sustainment strategy for Stryker vehicles. Specifically, we
reviewed contract funding procedures, contract type, performance metrics, contractor
billings, and controls over Government property that is being managed by the contactor.
See Appendix A for a discussion of the scope and methodology and prior audit coverage
related to the objective.

This report is the third in a series of three reports and addresses contractor billings. The
first report, DODIG-2012-102, “Better Cost-Control Measures Are Needed on the
Army’s Cost-Reimbursable Services Contract for Logistics Support of Stryker Vehicles,”
June 18, 2012, addressed contract type and performance metrics. The second report,
DODIG-2013-025, “Accountability Was Missing for Government Property Procured on
the Army’s Services Contract for Logistics Support of Stryker Vehicles,”
November 30, 2012, addressed controls over Government property (Army-owned Stryker
inventory).

We performed this audit pursuant to Public Law 110-417, “Duncan Hunter National
Defense Authorization Act for Fiscal Year 2009,” Section 852, “Comprehensive Audit of
Spare Parts Purchases and Depot Overhaul and Maintenance of Equipment for
Operations in Iraq and Afghanistan,” October 14, 2008. Section 852 requires:

               thorough audits to identify potential waste, fraud, and abuse in the performance of the
               following: (1) Department of Defense contracts, subcontracts, and task and delivery
               orders for—(A) depot overhaul and maintenance of equipment for the military in Iraq and
               Afghanistan; and (B) spare parts for military equipment used in Iraq and Afghanistan.

Background
Different organizations within the DoD, Army, and Canadian Government provided
policy and oversight functions that directly impacted the CLS sustainment for Stryker
vehicles. The following sections describe some of those organizations along with the
contractor and the Stryker CLS contract.

Defense Procurement and Acquisition Policy
The Defense Procurement and Acquisition Policy (DPAP), is an office under the Under
Secretary of Defense for Acquisition, Technology, and Logistics, responsible for
establishing contracting and procurement policy for the DoD. DPAP’s mission is to
enable components to effectively deliver equipment and services that meet the needs of
the warfighter through innovative policy, guidance, and oversight while being good
stewards of the taxpayers’ money. Specifically, DPAP implements policy by updating
and revising the Defense Federal Acquisition Regulation Supplement (DFARS) and
DFARS Procedures, Guidance, and Instruction (DFARS PGI).


                                                 1
Assistant Secretary of the Army (Financial Management
and Comptroller)
The Assistant Secretary of the Army (Financial Management and Comptroller) is
responsible for formulating, submitting, and defending the Army’s budget to Congress
and the American people and for overseeing the proper and effective use of the
appropriated resources to accomplish the Army’s assigned missions. Specifically, the
Assistant Secretary of the Army (Financial Management and Comptroller) is responsible
for the Army’s finance- and accounting-related policies, procedures, programs, and
systems; financial management systems; internal control programs; internal review and
audit compliance activities; reports of potential violations of the Antideficiency Act
(ADA); and other management evaluation activities.

Defense Contract Management Agency
The Defense Contract Management Agency (DCMA) provides contract administration
services to the DoD acquisition community. DCMA performs a variety of pre-contract
award services by request, including solicitation advice, identification of potential risks,
contractor selection, and formation of effective contracts. DCMA also offers
post-contract award administration services to ensure that costs, performance, and
delivery schedules are all in compliance with the contract terms. DCMA has many field
office sites in and outside the continental U.S., including locations in Detroit, Michigan
and London, Ontario, Canada.

Defense Contract Audit Agency
The Defense Contract Audit Agency (DCAA) provides a wide variety of audit and
advisory services to contracting officers. DCAA performs pre-contract award services
including price proposals, surveys, forward pricing labor and overhead rates, and
negotiation assistance. Also, DCAA conducts accounting system reviews to determine
the costs being reported by the contractors are accurate. In addition, DCAA offers
post-contract award audit services such as incurred costs, annual overhead rates, and
compliance with Cost Accounting Standards.

Public Works and Government Services, Canada
According to its website, 1 Public Works and Government Services, Canada (PWGSC) is
a service agency of the Canadian government that delivers high-quality services and
programs that meet the needs of Canadian federal organizations and ensure sound
stewardship on behalf of Canadians. One of PWGSC’s specific functions is to perform
assist audits on DoD contracts placed with the Canadian Commercial Corporation. The
Canadian Commercial Corporation is a Canadian government agency that serves as the
prime contractor on most DoD contracts that are awarded to a Canadian company and
exceed the $150,000 simplified acquisition threshold.




1
    The website source is http://www.tpsgc-pwgsc.gc.ca/apropos-about/prps-bt-eng.html.


                                                     2
Project Management Office Stryker Brigade Combat Team
The Project Management Office, Stryker Brigade Combat Team (PMO Stryker), is a
subsidiary office of the Program Executive Office, Ground Combat Systems, which is
under the command of the Assistant Secretary of the Army (Acquisition, Logistics, and
Technology). According to the Army website, 2 the mission of the PMO Stryker is to
provide proven superior acquisition, development, and sustainment of the Stryker family
of vehicles that afford the warfighter quick-response maneuvering, enhanced
survivability and lethality, expanded fight versatility, and proven tactical agility.

The Stryker family of vehicles is a 19-ton, 8-wheeled, armored vehicle platform
composed of 17 configurations (10 basic and 7 double-v hull configurations). Originally
named the “Interim Armored Vehicle,” the overall mission of the Stryker is to enable
soldiers to maneuver more easily in close quarters and urban terrain while providing
protection in the open terrain. See the Infantry Carrier Vehicle, a variant of the Stryker
vehicle, in Figure 1.

                   Figure 1. Stryker “Infantry Carrier Vehicle”




                   Source: www.sbct.army.mil.

General Dynamics
According to its website, 3 General Dynamics Corporation is an international Defense
contractor that offers a wide array of land and amphibious combat systems, subsystems,
and components. In addition to the Stryker family of vehicles, General Dynamics has
developed a variety of other combat vehicles, such as the Light-Armored Vehicle, M1
Abrams tank, Fox vehicle, Mine-Resistant Ambush-Protected vehicle, and the
Expeditionary Fighting vehicle. Since the inception of the Stryker program, General
Dynamics has handled both production and contractor logistics support requirements
primarily through its subsidiary, General Dynamics Land Systems (GDLS) Inc.

GM GDLS Defense Group, L.L.C. was incorporated in October 1999 as a joint venture
between GDLS, Inc. and General Motors Defense of Canada. The joint venture allowed


2
    The website source is http://www.peogcs.army.mil/sbct.html.
3
    The website source is http://www.generaldynamics.com



                                                     3
the two companies to combine their resources and generate a contract proposal that
would meet the accelerated requirements of the Stryker program. In November 2000,
Army Contracting Command-Warren competitively awarded the initial Stryker
production contract, which included provisions for CLS, to the joint venture. In
March 2003, General Dynamics Corporation acquired General Motors Defense, which it
renamed GDLS-Canada, and kept it operationally separate from GDLS, Inc. In
December 2006, Army Contracting Command-Warren awarded a multi-year delivery
order for CLS requirements to GM GDLS Defense Group, L.L.C. Figure 2 illustrates the
overall organizational structure of the General Dynamics components involved in
performing the Stryker CLS contract as of March 2013.

         Figure 2. Business Structure of General Dynamics’ Subsidiaries Involved
                               in the Stryker CLS Contract

                                               General Dynamics
                                                 Corporation



            General Dynamics Land Systems                                   GDLS-Canada
                     (GDLS), Inc.                               • Prior to 2003, operated as General
           • Splits workshare with GDLS-Canada                    Motors Defense (Canada).
             on the Stryker CLS contract.                       • Splits workshare with GDLS, Inc. on
                                                                  the Stryker CLS contract.
            GM GDLS Defense Group, L.L.C.
          • Established in 1999 as a joint venture
            between GDLS, Inc. and General
            Motors Defense (Canada).
          • In 2003, General Dynamics
            Corporation acquired full ownership
            interests in the company.
          • Awarded the Stryker CLS contract.



Stryker/GDLS Follow-On CLS Contracts
The follow-on CLS contract was a 6-year (base year and 5 option years),
cost-plus-fixed-fee contract, which as of February 2013, was funded for approximately
$1.6 billion,4 including fees or profit of $139.3 million (contract W56HZV-07-D-M112
delivery orders 0019, 0169, and 0269). GDLS, Inc. and GDLS-Canada are responsible
for performing scheduled and unscheduled maintenance; requesting, receiving, storing,
and issuing all Stryker vehicle spares and repair parts; and documenting all part
consumption and vehicle repairs. GDLS, Inc. and GDLS-Canada provide CLS to


4
    Contract value of $1.6 billion includes only CLS contract line items of more than $40 million.


                                                       4
maintain all Stryker garrison and deployment 5 vehicles at a fully mission-capable status.
The second follow-on Stryker logistics support contract (contract W56HZV-13-D-0008
delivery order 0002) was awarded as an undefinitized 6 contract in December 2012 and is
scheduled for definitization 7 in June 2013.

Review of Internal Controls Over Interim Vouchers
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
July 29, 2010, requires DoD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. We identified internal control
weaknesses for PMO Stryker and DCMA-Detroit. Specifically, PMO Stryker and
DCMA-Detroit officials did not establish adequate oversight to review the contractor
accounting system and verify that interim vouchers reconciled to the appropriate cost
accounts, as required by DFARS 252.242-7006, “Accounting System Administration.”
Additionally, DCMA-Detroit did not coordinate with PWGSC to develop adequate
verification procedures for GDLS-Canada’s material charges before the DCAA resident
office approved the consolidated interim vouchers submitted for payment. We will
provide a copy of the report to the senior official responsible for internal controls in the
Under Secretary of Defense for Acquisition, Technology, and Logistics and the Army
Program Executive Office Ground Combat Systems.




5
  “Garrison” describes Stryker vehicles stationed at a permanent military post. “Deployment” describes
Stryker vehicles that are deployed in theater to support a military operation.
6
  The Government initiates an undefinitized contract action when the contract terms, specifications, or price
could not reasonably be negotiated in sufficient time to meet requirements that are in the Government’s
best interest. The Government must establish a not-to-exceed contract ceiling price and obligate no more
than 50 percent of the ceiling price.
7
  Definitization is the act of agreeing on contract terms, specifications, and price which converts the
undefinitized contract to a definitive contract. Definitization must occur within 180 days after the
contractor submits a qualifying proposal.


                                                     5
Finding. Oversight Improvements Are
Needed for General Dynamics Land
Systems-Canada’s Accounting System
PMO Stryker and DCMA-Detroit did not verify that GDLS-Canada’s accounting system
was adequate during the execution of the cost-reimbursable services contract for logistics
support of Stryker vehicles, as required by the Federal Acquisition Regulation (FAR)
Subpart 16.3, “Cost-Reimbursable Contracts.”

This condition occurred because PMO Stryker and DCMA-Detroit did not establish an
adequate system of internal controls to review GDLS-Canada’s accounting system and
verify that the billing system for vouchers reconciled to the appropriate cost accounts, as
required by the DFARS. Specifically, the contractor did not charge costs for specific job
tasks to contract line item numbers (CLINs) based on the scope of work and the period of
performance in which the costs were actually incurred. Instead, GDLS-Canada
inappropriately charged reimbursable costs to CLINs based solely on the amount of
obligated funds remaining on the CLINs. Additionally, due to inadequately defined
standards for reciprocal audit support services between U.S. and Canadian governments
for DoD procurements, DCMA-Detroit did not coordinate with PWGSC to develop
adequate verification procedures for GDLS-Canada’s material charges before DCAA
resident office approved the consolidated interim vouchers submitted for payment.

As a result, GDLS-Canada potentially charged as much as $866.8 million 8 of incurred
reimbursable costs to the incorrect CLINs that were each funded with specific
appropriations. Also, PMO Stryker risked potentially violating the ADA by paying the
misapplied charges. In addition, GDLS-Canada’s accounting system deficiencies may
have resulted in the misrepresentation of budgetary needs for future years. Further, as of
February 2013, PMO Stryker had paid approximately $1.5 billion 9 on the Stryker CLS
contract without verifying that GDLS-Canada’s portion of the reimbursable costs was
complete and accurate, which increases the risk of improper payments.




8
  On January 28, 2013, a GDLS-Canada contracting official stated that GDLS-Canada had submitted
approximately $866.8 million in interim voucher claims through GDLS, Inc., into consolidated interim
vouchers, for CLS delivery order 0019 from March 2007 to June 2012.
9
  The $1.5 billion only includes payments made against CLS contract line items with obligated funds of
more than $40 million.


                                                    6
Structure of Contract Delivery Order 0019
The Stryker CLS contract delivery order 0019 was administered over a 4-year period and
consisted of the following three efforts with distinct scopes of work for the Stryker
vehicle.

     •   CLS Garrison and Deployment––fully integrated logistics services for garrison
         and deployment vehicles, which include forecasting, ordering, receiving, storing,
         and issuing spare parts as well as scheduled maintenance and minor repair
         services.

     •   Reset––an assessment of the serviceability of vehicles returning from Southwest
         Asia and a major overhaul of non-serviceable components to bring the vehicle
         back to a fully mission capable condition.

     •   Battle Damage Assessment and Repair––repair and technical support for repair
         of extensively damaged vehicles to a fully mission capable condition.

The contract costs for the three efforts were negotiated separately, funded with various
appropriations, and executed on the contract under separate CLINs. The CLS garrison
and deployment effort was incrementally funded with operations and maintenance funds
over four consecutive annual periods of performance from March 1, 2007 to
February 28, 2011.

Adequacy of the Contractor’s Accounting System
Needed Verification
PMO Stryker and DCMA-Detroit did not verify that GDLS-Canada’s accounting
system 10 was adequate during the execution of the cost-reimbursable services contract for
logistics support of Stryker vehicles, as required. FAR Subpart 16.3 requires contracting
officers to confirm that the contractor’s accounting system is adequate when using a cost-
reimbursable contract. Specifically, FAR 16.301-3, “Limitations,” states:
             (a) A cost-reimbursement contract may be used only when –

                                                    [Paragraphs omitted]

                 (3) The contractor’s accounting system is adequate for determining costs applicable to the
                 contract or order.




10
  According to DFARS 252.242-7006(a), an accounting system is “the Contractor’s system or systems for
accounting methods, procedures, and controls established to gather, record, classify, analyze, summarize,
interpret, and present accurate and timely financial data for reporting in compliance with applicable laws,
regulations, and management decisions, and may include subsystems for specific areas such as indirect and
other direct costs, compensation, billing, labor, and general information technology.”



                                                     7
Additionally, FAR Subpart 42.3, “Contract Administration Office Functions,” requires
the administrative contracting officer (ACO) to verify that the contractor’s accounting
system and internal controls are adequate enough to produce contractor data which can be
relied upon for Government oversight of contractor performance. Specifically,
FAR 42.302(a)(12), “Contract Administration Functions,” states:

                 (12) Determine the adequacy of the contractor’s accounting system. The contractor’s
                 accounting system should be adequate during the entire period of contract performance.
                 The adequacy of the contractor’s accounting system and its associated internal control
                 system, as well as contractor compliance with the Cost Accounting Standards (CAS),
                 affect the quality and validity of the contractor data upon which the Government must
                 rely for its management oversight of the contractor and contract performance.

GDLS-Canada’s Interim Vouchers Did Not Reconcile to
the Appropriate Cost Accounts
PMO Stryker and DCMA-Detroit did not establish an adequate system of internal
controls to review GDLS-Canada’s accounting system and verify that the billing system
for interim vouchers reconciled to the appropriate cost accounts, as required by
the DFARS. 11

        DFARS 252.242-7006, “Accounting System Administration,” states:

                 (c) System criteria. The Contractor’s accounting system shall provide for—
                                          [Paragraphs omitted]

                         (16) Billings that can be reconciled to the cost accounts for both current and
                 cumulative amounts claimed and comply with contract terms.

 GDLS-Canada did not charge costs for specific job tasks to CLINs based on the scope of
 work and the period of performance in which the costs were actually incurred. Instead,
                                      GDLS-Canada inappropriately charged its
   GDLS-Canada did not charge         reimbursable costs to CLINs based solely on the
   costs for specific job tasks to    amount of obligated funds remaining on the CLINs.
   CLINs based on the scope of        GDLS-Canada officials stated, “CLINs were billed
      work and the period of          based on available funding” and “London [Ontario
     performance in which the         Canada] expenditures are collected at the delivery
   costs were actually incurred.      order level and are allocated to the CLINs based on
                                      funded value.” Figure 3 illustrates GDLS-Canada’s
 unacceptable accounting practice of disregarding the performance period in which costs
 were actually incurred, and allocating the indistinguishable incurred costs to CLINs
 based solely on remaining funding on the CLS delivery order 0019.


11
  The Stryker CLS contract was awarded in December 2006 and did not include DFARS
clause 252.242-7006 because the clause was not required until February 2012. Although this DFARS
clause was not included in the December 2006 Stryker CLS contract, it provides specific criteria that is
useful in assessing a contractor’s accounting system. The DFARS clause was included in the undefinitized
Stryker CLS contract awarded in December 2012.


                                                    8
  Figure 3. Indistinguishable Costs Charged on Stryker CLS Delivery Order 0019

                                                      Garrison and Deployment CLIN 0001AA/AB
                                                               PoP (Mar 2007–Feb 2008)
                                                             Funded with FY07 OMA Funds


                                                      Garrison and Deployment CLIN 0012AA/AB
       Indistinguishable Incurred
          Cost for Contractor                                  PoP (Mar 2008–Feb 2009)
           Logistics Support                                 Funded with FY08 OMA Funds
              (Garrison and
          Deployment), Battle                              Garrison and Deployment CLIN
        Damage and Repair, and                                    0017AA/AB/AC
                 Reset
                                                             PoP (Mar 2009–Feb 2010)
         (Mar 2007–Feb 2011)
                                                           Funded with FY09 OMA Funds

                                                      Garrison and Deployment CLIN 0020AA/AB
                                                               PoP (Mar 2010–Feb 2011)
                                                             Funded with FY10 OMA Funds

                Indicated costs charged based on remaining obligation
       PoP      Period of Performance
       OMA      Operations and Maintenance Army


Since PMO Stryker and DCMA-Detroit did not perform a review of GDLS-Canada’s
accounting system to identify the cost misallocations, GDLS-Canada may have charged
as much as $866.8 million of incurred reimbursable costs to the incorrect CLINs on
delivery order 0019, which were funded with specific appropriations from March 2007
through June 2012.

Contract Charges Risk Potential ADA Violations
As a result of GDLS-Canada’s accounting system failing to properly charge costs to the
contract based on the period of performance in which the costs were actually incurred,
                                     PMO Stryker may have made contract payments that
  As a result of GDLS-Canada’s       potentially violated the ADA. Section 1502, title 31,
    accounting system…PMO            United States Code (31 U.S.C. § 1502), a statute of
      Stryker may have made          the ADA, mandates that appropriations designated
      contract payments that         for a definite period is only available for payment of
   potentially violated the ADA.     expenses incurred during the appropriations period
                                     of availability.

               (a) The balance of an appropriation or fund limited for obligation to a definite
                   period is available only for payment of expenses properly incurred during the
                   period of availability or to complete contracts properly made within that period of
                   availability and obligated consistent with section 1501 of this title. However, the
                   appropriation or fund is not available for expenditure for a period beyond the
                   period otherwise authorized by law. [emphasis added]



                                                  9
Figure 4 shows how GDLS-Canada should have charged incurred costs during specified
periods to the CLINs funded with appropriations that were available during the same
period on the CLS delivery order 0019 in accordance with 31 U.S.C. § 1502.

Figure 4. Proper Allocation of Cost Charged on Stryker CLS Delivery Order 0019
      Garrison and Deployment                          Garrison and Deployment CLIN 0001AA/AB
            Cost Incurred                                       PoP (Mar 2007–Feb 2008)
        Mar 2007–Feb 2008                                     Funded with FY07 OMA Funds


      Garrison and Deployment                          Garrison and Deployment CLIN 0012AA/AB
            Cost Incurred                                       PoP (Mar 2008–Feb 2009)
        Mar 2008–Feb 2009                                     Funded with FY08 OMA Funds

      Garrison and Deployment                                Garrison and Deployment CLIN
            Cost Incurred                                           0017AA/AB/AC
        Mar 2009–Feb 2010                                      PoP (Mar 2009–Feb 2010)
                                                             Funded with FY09 OMA Funds

      Garrison and Deployment                          Garrison and Deployment CLIN 0020AA/AB
            Cost Incurred                                       PoP (Mar 2010–Feb 2011)
        Mar 2010–Feb 2011                                     Funded with FY10 OMA Funds

                     Indicated costs charged based on scope of work and costs incurred
                     during the period in which appropriated funds were available.
           PoP       Period of Performance
           OMA       Operations and Maintenance Army


GDLS Explanation for Accounting System Inconsistencies
According to GDLS, Inc. officials, GDLS-Canada’s Oracle accounting system could not
properly track costs to the CLINs based on when the costs were incurred for the Stryker
CLS delivery order 0019. Instead, GDLS-Canada’s accounting system tracked costs to
the delivery order level, which included successive periods of performance.
GDLS-Canada officials acknowledged that the method of accounting was an abnormal
practice and was attributed to the unique requirements of the Stryker CLS contract which
allowed the comingling of newly purchased as well as government-furnished spare parts
to support CLS garrison and deployment, reset, and battle damage assessment and repair
requirements. In a letter to PMO Stryker, dated July 18, 2012, GDLS, Inc.
officials stated:

              General Dynamics [General Dynamics Land Systems]-Canada’s material costs were not
              properly tracked to the CLIN’s in the cost accounting system. Because of this practice,
              GDLS [General Dynamics Land Systems]-Canada could not specifically bill cost by
              CLIN based on the accounting system but had to allocate cost incurred across applicable
              CLIN’s within the appropriate Delivery Order based on available funding for billings.




                                               10
Additionally, in a briefing, dated September 11, 2012, GDLS-Canada officials stated that
material requirement costs were not transferred among projects when the material was
physically transferred between CLINs for consumption.

                Previously GDLS [General Dynamics Land Systems] established task codes for each
                CLIN, however, the costing of the material by task code was not always consistent with
                the usage of the material in supporting CLIN activity. Because the material was
                comingled at the Auburn warehouse and because of the way projects were established in
                our Accounting System, cost was not always properly transferred between task codes to
                account for the physical transfer of material between CLIN’s to facilitate material usage.
                Because of this, the actual cost by task code in our Accounting System did not
                necessarily reflect actual cost by CLIN….

                Because of the issues cited above related to the tracking of actuals, previously GDLS did
                not bill cost by CLIN based on the actuals by task code in the Accounting System.

Figure 5 is an example of GDLS-Canada’s accounting process when a project loans a
material asset to a stock-deficient project at no cost in order to fill a requisition.

          Figure 5. GDLS-Canada Assignment of Costs by Scopes of Work
                                Requisition                        Request Part

                                                                      Transfer at
                                                                      no cost
         Stryker Brigade                               Reset                                 CLS
        Part requisitioned to                 Requirement/Inventory                 Requirement/Inventory
       complete vehicle Reset                    Part Not in Stock                       Part in Stock

                                                                                                Part
                                                       Cost to Restock Part
                                                                                                Restocked
                                                       Charged to Contract


                                                                      Part Ordered


                                                GDLS-Canada                                Vendor

                                                       Canadian Voucher
                            Consolidated
                            Interim
                            Voucher


                                Payment
               DOD                               GDLS, Inc.

                            Indicates billing process
                            Indicates movement of parts
                            Indicates administrative process


The Stryker sustainment efforts (CLS garrison and deployment, reset, and battle damage
assessment and repair) were funded under separate budget line items. The CLS garrison

                                                       11
funds were provided from the base DoD budget. CLS deployment, reset, and battle
damage assessment and repair efforts were funded from the supplemental DoD budget
and segregated by the Army into sub-activity groups for budgetary tracking. Therefore,
uncorrected GDLS-Canada’s accounting system deficiencies may misrepresent the actual
material consumption cost which contributes towards future budgetary justifications for
the distinct budget line items.

When significant deficiencies in the accounting system are found, the contracting officer
must notify the contractor, in writing, of the deficiency and allow the contractor to
respond with either a corrective action plan or disagreement. Upon receipt of the
contractor’s response, the contracting officer is required to evaluate the response and
notify the contractor, in writing of the final determination on whether the accounting
system is acceptable. DFARS 252.242-7006(d) stated:

               (d) Significant deficiencies. (1) The Contracting Officer will provide an initial
               determination to the Contractor, in writing, of any significant deficiencies. The initial
               determination will describe the deficiency in sufficient detail to allow the Contractor to
               understand the deficiency.

                        (2) The Contractor shall respond within 30 days to a written initial determination
               from the Contracting Officer that identifies significant deficiencies in the Contractor’s
               accounting system. If the Contractor disagrees with the initial determination, the
               Contractor shall state, in writing, its rationale for disagreeing.

                        (3) The Contracting Officer will evaluate the Contractor’s response and notify
               the Contractor, in writing, of the Contracting Officer’s final determination concerning—

                                 (i) Remaining significant deficiencies;
                                 (ii) The adequacy of any proposed or completed corrective action; and
                                 (iii) System disapproval, if the Contracting Officer determines that one
                        or more significant deficiencies remain.

Agreement With Public Works and Government Services Canada
Did Not Sufficiently Define Audit Services
In December 2002, PWGSC entered into an agreement with PMO Stryker and
DCMA-Canada to provide audit services when DoD contractors subcontract directly to
Canadian suppliers for the Stryker Brigade Combat Team program. However, during a
meeting in October 2012, PMO Stryker and PWGSC officials concurred that the
agreement did not sufficiently define the type of audit services that PWGSC would
perform or the performance period of such services. The agreement stated:

               PWGSC, through CCC [Canadian Commercial Corporation], also provides assist audit
               services in those cases where U.S. defense contractors place subcontracts directly with
               Canadian suppliers. In this regard, PWGSC continues to provide assist audit type
               services to the U.S. Army on the GMD BCT [General Motors Defense Brigade Combat
               Team] program subcontracts.

According to a PWGSC official, PWGSC performed accounting system reviews
consisting of estimating, purchasing, and billing every 3 years on a rotating basis.
However, PWGSC did not provide DCMA-Detroit or DCMA-Canada with detailed

                                                  12
reports that summarized the findings and results of the reviews. Instead, PWGSC issued
letters to DCMA-Canada that concluded whether the contractor’s system was approved
or whether major deficiencies were discovered that required corrective actions by
GDLS-Canada. For example, in April 2011 after a review of GDLS-Canada’s accounting
system, PWGSC issued a letter to DCMA-Canada which concluded that while minor
deficiencies were identified that required corrective action, the accounting system was
acceptable. DFARS 252.242-7006(a) defined an acceptable accounting system as a
system that provides reasonable assurance that contract allocations and charges are
consistent with billing procedures. However, the PWGSC review did not identify the
deficiencies related to the misallocated reimbursable costs. According to a PWGSC
official, the PWGSC accounting system review would not have identified the deficiency
because the scope of the review did not include the Stryker CLS contracts.

Audit Cognizance for DoD Contracts and Subcontracts With
Canadian Companies Were Undefined
The “Defence Production Sharing Agreement Between Canada and the United States of
America,” July 27, 1956, established reciprocal protocols for the U.S. and Canadian
governments to facilitate procurement between the respective countries when the U.S.
contract is for supplies and services awarded to the Canadian Commercial Corporation.
However, the roles and responsibilities for performing audit services that facilitate
procurements on U.S. prime contracts and subcontracts awarded directly to Canadian
companies had not been defined and formalized into a reciprocal agreement. According
to a DPAP official, DPAP and PWGSC have been conducting ongoing negotiations to
establish an annex to a reciprocal defense procurement memorandum of understanding
that formalizes audit services in support of U.S. prime contracts and subcontracts with
Canadian companies. Meanwhile, PWGSC has and will continue to render audit assist
services to DoD at no cost under an informal arrangement until a formal agreement that
defines roles and responsibilities for audit services can be negotiated. The DPAP official
stated that the initial intent of the planned agreement was to establish procedures for
PWGSC auditors to perform price proposal analysis services on behalf of DoD because
DoD efforts to obtain cost or pricing data from Canadian companies had historically been
difficult. In a letter dated March 15, 2013, the Director, DPAP, requested in addition to
price proposal analysis, that PWGSC approve interim vouchers on the cost-reimbursable
contract and furnish periodic advisory audit reports of accounting system reviews to the
ACO, in accordance with DFARS PGI 225.870, “Contracting with Canadian
Contractors.” Specifically, DFARS PGI 225.870-5(2)(ii) states:

               (2) The following procedures apply to cost-reimbursable type contracts:

                                                 [Paragraphs omitted]

                        (ii) For contracts placed directly with Canadian firms, the administrative
               contracting officer requests audits from the CAC [Consulting and Audit Canada], Ottawa,
               Ontario, Canada. The CAC/PWGSC [Public Works and Government Services,
               Canada]—

                            (A) Approves invoices on a provisional basis pending completion of the
                                contract and final audit;

                                                 13
                            (B) Forwards these invoices accompanied by SF 1034, Public voucher, to
                                the administrative contracting officer for further processing and
                                transmittal to the disbursing officer; and
                            (C) Furnishes periodic advisory audit reports directly to the administrative
                                contracting officer.

The DFARS PGI establishes that PWGSC would review and approve interim vouchers
for payment and perform periodic accounting system audits, but a formal agreement is
still needed to address which country’s fiscal laws and accounting standards the Canadian
companies would be measured against during an accounting system or voucher review.
As of March 2013, DPAP and PWGSC had not negotiated a formal agreement that
defined audit support responsibilities for U.S contracts and subcontracts with
Canadian companies.

The Director, DPAP, should continue to negotiate and finalize an agreement between the
U.S. and Canadian governments for U.S. prime contracts and subcontracts with Canadian
companies, which allows PWGSC to perform audit support services to include
accounting system and interim voucher reviews, but require that the audit services
comply with applicable U.S. fiscal laws and accounting standards.

The Director, DCMA, should determine the adequacy of GDLS-Canada’s accounting
system by requesting that PWGSC verify that actual costs are tracked to the appropriate
project tasks and that interim vouchers reconcile with cost accounts based on costs that
were actually incurred during the appropriation period of availability.

Management Actions by PMO Stryker
As a result of our March 2012 preliminary briefing of the accounting system deficiencies,
PMO Stryker issued a procuring contracting officer (PCO) letter that informed GDLS,
Inc. and GDLS-Canada that the practice of billing to expired CLINs for cost incurred in a
subsequent period of performance is prohibited and such a billing practice must be
corrected. Specifically, the PCO letter, dated March 7, 2012, stated:

               This PCO [procuring contracting officer] letter is to notify the contractor that you are to
               adhere to the FAR, DFARS, and DOD Financial Regulation when billing cost to contract
               CLINs. You are not allowed to bill to past CLINs for cost incurred in a subsequent
               period of performance, unless allowed by regulation. This notification shall be passed on
               to any affiliate used to complete the terms and conditions of any contract issued. The
               contractor shall take all the necessary steps to correct your billing practices.

Corrective Action by Contractor
On July 18, 2012, GDLS-Canada responded that a new billing practice had been
implemented, effective as of September 2011, which verified that actual costs tracked by
task code on CLS delivery order 0169 and all future contract delivery orders would be
billed to the correct CLIN. In addition, according to GDLS-Canada officials, the new
billing practice was not implemented for CLS delivery order 0019 until July 2012. A
GDLS, Inc. finance official stated that GDLS-Canada will initiate a manual review to
validate that demand for a part is assigned to the correct CLIN, which will then charge
the material cost to the appropriate project task that was responsible for consuming the

                                                  14
material when back-filling material that was transferred from one project task to another
for consumption. The official stated that the CLINs will be billed according to where the
actual material requirement was assigned.

GDLS-Canada did not believe that retroactive corrective actions were necessary for
delivery order 0019 because the total amount billed on contract did not exceed the total
cost obligated on the delivery order level, yielding no net effect to the Army for over or
under billing. According to GDLS-Canada officials, the effort to retroactively correct the
incurred cost allocations based on the period in which the cost were incurred, would
require an extensive amount of time and manpower. In November 2012, GDLS-Canada
officials deferred the decision to initiate corrective action to PMO Stryker; however, as of
March 2013, according to the project manager, PMO Stryker was still deliberating with
                                             GDLS-Canada to determine if such a
  If the past reimbursable charges are       reconciliation effort was plausible. If the past
   not reconciled to the actual period       reimbursable charges are not reconciled to the
    of performance in which the costs        actual period of performance in which the costs
   were incurred, the associated PMO         were incurred, the associated PMO Stryker
      Stryker payments may result in         payments may result in potential
         potential ADA violations.           ADA violations.

The Program Executive Officer, Ground Combat Systems should direct the Project
Manager, Stryker with support from the Army Contracting Command-Warren contracting
officer, to require GDLS-Canada to retroactively apply its revised billing procedures to
delivery order 0019 and apply actual incurred costs to the appropriate project task and
reconcile actual incurred cost to the appropriate CLINs based on when the costs
were incurred.

Additionally, if the reconciliation of delivery order 0019 results in any apparent
obligations that would exceed funds available in a formal subdivision of funds, the
Program Executive Officer, Ground Combat Systems should direct the Project Manager,
Stryker with support from the Director, Army Contracting Command-Warren, to report
the suspected ADA violations to the Assistant Secretary of the Army (Financial
Management and Comptroller).




                                             15
DCMA and PWGSC Coordination of Canadian Cost
Verification Procedures Was Inadequate
DCMA did not coordinate with PWGSC to develop adequate verification procedures for
GDLS-Canada’s material charges before the DCAA resident office approved the
consolidated interim vouchers submitted for payment. This was due to inadequately
defined standards for reciprocal audit support services between the U.S. and Canadian
governments for DoD procurements. On February 19, 2009, DCAA resident office
rescinded GDLS, Inc. authorization to direct bill and assumed the responsibility for
reviewing the contractor’s vouchers before payment was made by the Defense Finance
                                        and Accounting Service. As of February 2013, the
      The DCAA resident office          DCAA resident office approved payments totaling
    approved payments totaling          about $1.5 billion on the Stryker CLS contract
     about $1.5 billion…without         without verifying that GDLS-Canada’s portion of
   verifying that GDLS-Canada’s         the reimbursable costs was complete and accurate,
  portion of the reimbursable costs     which increases the risk of improper payments.
    was complete and accurate.          GDLS, Inc. and GDLS-Canada generate separate
cost vouchers that are consolidated into a single voucher that is submitted to the
Government. See Figure 6 for illustration of the ineffective process for approving
consolidated interim vouchers without verification of GDLS-Canada’s material charges.

   Figure 6. Government Voucher Review Process for the Stryker CLS Contract

       General Dynamics Land                                          DCAA
      Systems (GDLS)-Canada                         • Verified only the GDLS, Inc. portion of
      • Incurred reimbursable                         the consolidated interim voucher.
        costs.                                      • Inappropriately relied upon PWGSC
                                                      verification of GDLS-Canada costs
                                                      without ensuring appropriate fiscal and
                                                      accounting standards were followed.
                                                    • Approved consolidated interim voucher.
            GDLS-Canada
              Voucher
                                     Consolidated
                                       Interim                   Consolidated
                                       Voucher                     Interim
                                                                   Voucher

              GDLS, Inc.
    • Incurred reimbursable costs.                      Defense Finance and Accounting
    • Consolidated GDLS-Canada                                       Service
      and GDLS, Inc. costs into a                       • Paid the approved consolidated
      single interim voucher.                             voucher.




                                             16
DCMA and DCAA Provided Inconsistent Reasons for the
Lack of Oversight
DCMA-Detroit ACO and DCAA resident office auditors’ justifications for not verifying
GDLS-Canada’s voucher cost were inconsistent. Specifically, DCMA-Detroit and
DCAA resident office officials initially believed that they were not responsible for
verifying or overseeing PWGSC’s verification of GDLS-Canada’s voucher costs because
a 1956 reciprocal agreement between the U.S. and Canada prohibited it. Subsequently,
the DCAA resident office changed its position and stated that a December 2002
agreement between PWGSC, DCMA-Canada, and PMO Stryker prohibited DCMA and
DCAA from verifying GDLS-Canada voucher cost.

DCMA and DCAA Misinterpreted the Terms of the
United States-Canada Reciprocal Agreement
During meetings in July 2010 and August 2011, a DCMA-Detroit ACO and DCAA
resident office auditors stated that a reciprocal agreement between the U.S. and Canada
prohibited the DCAA resident office from reviewing and verifying voucher costs claimed
by GDLS-Canada because it was a Canadian company. However, DCMA-Detroit and
DCAA resident office officials misinterpreted the agreement because the agreement
applied to contracts for supplies and services awarded to the Canadian Commercial
Corporation, and the Stryker contract was awarded to GM GDLS Defense Group, L.L.C.,
which was a U.S.-based entity. Specifically, the “Defence Production Sharing
Agreement Between Canada and the United States of America,” states:

              Text of Agreement dated 27 July 1956, as amended 17 December 1956, 31 May
              1957, 6 January 1961, and 15 October 1962, between the Department of Defence
              Production (Canada) and the U.S. Departments of the Army, the Navy, the Air
              Force, and the Defense Supply Agency, sets forth policies and provides procedures
              with respect to all contracts for supplies and services placed with the Canadian
              Commercial Corporation on or after 1 October 1956.

              This agreement applies to all contracts placed, on or after October 1, 1956, by any of
              the Military Departments with the Corporation. It shall remain in force from year to
              year until terminated by mutual consent; however, it can be terminated on the 31st day of
              December or the 30th day of June in any year by either party provided that six months’
              notice of termination has been given in writing. In addition, this agreement provides for
              certain reciprocal arrangements facilitating procurement by each of the parties in the
              country of the other. [emphasis added]




                                                17
If the reciprocal agreement was applicable, it still would not have prohibited a DCMA or
DCAA from requesting an interim voucher review of a Canadian company. Instead, the
agreement implicitly authorized the DCMA ACO and DCAA resident office auditors to
coordinate with PWGSC auditors, and in appropriate circumstances, authorized the
DCMA ACO to request the DCAA resident office to perform its own interim voucher
reviews of the Canadian company. The agreement states:

              The Department of National Defence (Canada) or any Military Department may provide
              liaison with the other’s inspection personnel in connection with the foregoing. It is
              understood that either the Department of National Defence (Canada) or any Military
              Department may in appropriate cases arrange for inspection by its own inspection
              organization in the other’s country.

DCAA Misinterpreted the Terms of the PMO Stryker and
PWGSC Agreement
In September 2011, after clarification from PWGSC, the DCAA resident office auditor
clarified the August 2011 statement that the 1956 reciprocal agreement prohibited DCAA
auditors from verifying GDLS-Canada’s cost, and stated that the reciprocal agreement
did not apply to the Stryker contract. Instead, the DCAA resident office auditor stated
that the terms in the December 2002 agreement between PMO Stryker, DCMA-Canada,
and PWGSC, established that PWGSC would be responsible for reviewing and verifying
the claimed cost of GDLS-Canada. However, the agreement did not prohibit DCMA or
DCAA involvement in the process. In fact, the agreement encouraged PWGSC auditors
to work closely with DCMA-Canada when needed.

              As we agreed, PWGSC [Public Works and Government Services, Canada] will be
              pleased to work closely with the U.S. Army, with your PCOs [procuring contracting
              officers], your negotiation teams as well as with the DCMA [Defense Contract
              Management Agency] Office in London. We did establish a process for your office to
              have direct access to our Cost Auditors/Analysis for urgent or unique inquiries, with the
              ACO [administrative contracting officer] in London being advised accordingly.

              As part of this process, we both felt it extremely beneficial that PWGSC Cost Auditors/
              Analysts meet with you and your team, on a monthly basis, choosing the last Tuesday
              morning of each month. These meetings will be either in person at TACOM or held by
              teleconference.

Further, as discussed earlier in the report section, “Agreement with Public Works and
Government Services Canada,” the agreement did not sufficiently define the type of audit
services that PWGSC would perform.

PWGSC Interim Voucher Reviews Were Insufficient
DCAA resident office officials relied on insufficient interim voucher reviews of
GDLS-Canada’s material cost performed by PWGSC to approve the consolidated interim
vouchers submitted by GDLS, Inc. DoD Financial Management Regulation
(DoD FMR) 7000.14-R, volume 10, “Contract Payment Policy and Procedures,”
chapter 8, “Commercial Payment Vouchers and Supporting Documents,” states that the
DCMA ACO may delegate the responsibility for approving interim vouchers to DCAA,
but the ACO must approve the final completion voucher for cost-reimbursable contracts.

                                                18
              080404. Invoice
                       E. Invoices Requiring Administrative Contracting Officer (ACO) Approval.
              The Defense Contract Audit Agency (DCAA) is the authorized representative of the
              ACO for approving all interim vouchers for provisional payments, except the final
              voucher. DCAA also approves for payment interim vouchers for commercial and non-
              commercial Time and Material (T&M) and Labor Hour (LH) vouchers. See DoD
              Directive 5105.36 for additional information. The following invoices and vouchers
              require ACO approval before payment.

                             1. Completion vouchers under cost-plus fixed-fee or other cost-
              reimbursement contracts. [emphasis added]

PWGSC performed two types of reviews on GDLS-Canada interim vouchers: cursory
and quarterly reviews. Cursory reviews involved the verification of contractor overhead
rates and mathematical calculations on the voucher. The quarterly review was a more
detailed review in which PWGSC selected a single voucher from the universe of
GDLS-Canada vouchers submitted during the quarter under all Stryker program contracts
(not just CLS delivery orders). As part of the quarterly reviews, PWGSC verified
mathematical accuracy by reviewing revenue and expense reports, listing of materials
purchased, labor charges, and other direct material costs. Additionally, PWGSC
performed material cost verification by selecting a sample of material purchases and
matching them to the purchase order and voucher.

Cursory Reviews Did Not Add Value
According to PWGSC officials, cursory reviews were performed on all GDLS-Canada’s
voucher claims to the U.S. Government. However, PWGSC’s cursory reviews did not
confirm that material cost submitted for payment were accurate by verifying that the
material conformed to the contract, the material was received, and payment was legal
under the appropriation as required by the DoD FMR 7000.14-R. DoD FMR 7000.14-R,
volume 10, “Contract Payment Policy and Procedures,” chapter 8, “Commercial Payment
Vouchers and Supporting Documents,” states:

              080206. Title 31 USC 3325 authorizes disbursing officers to disburse money only when
              provided a voucher certified by a properly appointed certifying officer. The certified
              voucher attests that the payment is legal, correct, and proper. As stated in 31 USC 3528,
              certifying officers are pecuniarily liable for payments not meeting these requirements
              unless granted relief. Officers who certify commercial (goods and services) payments
              must ensure that:

                      A. A legal obligation to pay exists (typically a contract),
                      B. The payee has fulfilled any prerequisites to payment (typically an
                         invoice and receiving report),
                      C. The amount of the payment and identity of the payee are correct, and
                      D. The payment is legal under the appropriation or fund involved
                         (typically the correct fiscal year and appropriation). [emphasis added]

DCMA-Canada and the DCAA resident office accepted PWGSC’s cursory review
conclusions that GDLS-Canada’s interim voucher costs were accurate without any


                                                19
substantiation of the costs incurred. An example is shown in an e-mail submitted in
September 2008 to the DCAA resident office:

               PWGSC confirms that the listed Cost Vouchers and Progress Claims were reviewed by
               us and deemed adequately priced. We would appreciate your communicating DCMA
               [Defense Contract Management Agency] London’s acceptance with the applicable parties
               accordingly.

Quarterly Reviews Did Not Occur for Years
Despite performance on Stryker CLS delivery order 0019 beginning on March 1, 2007;
PWGSC did not complete its first detailed quarterly review of the delivery order until
November 28, 2011, which was almost 5 years later. PWGSC began its first voucher
review of delivery order 0019 as a result of our audit inquiries in preparation for our site
visit on November 17, 2011. A PWGSC official stated, in an e-mail dated
November 15, 2011, that:
               We can certainly discuss the review process, but I remind you that this process applies to
               the entire Stryker Program, not just the CLS [contractor logistics support] contract. We
               are checking but are not sure if a recent review has been done on a CLS voucher. Based
               upon our earlier correspondence I asked [name omitted] of my staff to select a CLS
               voucher for this quarter. He is currently in the process of performing that review and we
               can certainly share what we reviewed to date.

As a result of a special request from the DCAA resident office in a letter, dated
November 14, 2011, PWGSC completed similar detailed reviews for three more vouchers
on Stryker CLS delivery orders 0169 on June 29, 2012. PWGSC concluded that the
sampled material purchased reconciled to supporting documentation. However, the
detailed reviews did not verify that the GDLS-Canada’s reimbursable expenses were
charged based on costs incurred during the period in which appropriated funds were
available. Additionally, on November, 7, 2012, the PMO Stryker PCO requested in a
letter that the DCMA-Detroit ACO provide oversight of GDLS-Canada’s billings and
associated Government payments for parts as a result of the GDLS-Canada’s accounting
system weaknesses identified in this audit.

As of March 2013, the DCMA-Detroit ACO still had not coordinated an adequate plan
with PWGSC to execute interim voucher and payment oversight as PMO Stryker
requested because DPAP and PWGSC had not formalized a reciprocal defense
procurement memorandum of understanding that would require Canadian companies to
comply with applicable U.S. fiscal laws and accounting standards on DoD prime
contracts and subcontracts with Canadian companies.

The Director, DCMA, should request PWGSC to develop and implement an audit plan
that verifies GDLS-Canada material cost claims comply with applicable U.S. fiscal laws
and accounting standards before DCAA approves the consolidated interim vouchers
submitted by GDLS, Inc. for Defense Finance and Accounting Service payments.




                                                 20
Management Comments on the Finding and
Our Response
The Deputy Program Executive Officer, Ground Combat Systems (Deputy PEO)
disagreed with the report depiction on the potential impacts of the contractor accounting
system weakness on the DoD budget and identified additional management action taken
to reconcile the costs charged by GDLS-Canada against delivery order 0019 that should
be included in the final report.

Department of the Army Comments on DoD Budgetary Impacts
The Deputy PEO stated that budget planning for material requirements was not based on
financial reports of money charged or budget lines charged for parts procured, as he
believed the report implied. Instead, the Deputy PEO stated that budget planning for
materials was based on actual consumption in prior years by quantity, part number,
National Stock Number, and nomenclature during maintenance, repair, and overhaul
activities. Therefore, he requested that the following paragraph in the report be deleted:

               The Stryker sustainment efforts (CLS garrison and deployment, reset, and battle damage
               assessment and repair) were funded under separate budget line items. The CLS garrison
               funds were provided from the base DoD budget. CLS deployment, reset, and battle
               damage assessment and repair efforts were funded from the supplemental DoD budget
               and segregated by the Army into sub-activity groups for budgetary tracking. Therefore,
               uncorrected GDLS-Canada’s accounting system deficiencies may misrepresent the actual
               material consumption cost which contributes towards future budgetary justifications for
               the distinct budget line items.


Department of the Army Comments on Management
Action Taken
The Deputy PEO stated that the Army Contracting Command-Warren took additional
management action to correct the contractor accounting system deficiencies by issuing a
series of PCO letters to GDLS-Canada.

   •   On June 27, 2012, PCO letter LNW521 was issued to notify GDLS, Inc. of the
       risk for potential Antideficiency Act violations identified by DoD IG and required
       the contractor to submit a written plan, which described any action taken to
       correct GDLS-Canada’s irregular billing practices and any plans to prevent future
       occurrences.
   •   On April 4, 2013, PCO letter SJB129 was issued to require GDLS, Inc. to provide
       verification that the billing procedure corrective actions taken were effective and
       determine whether the GDLS-Canada billing practices for delivery order 0019
       violated the Antideficiency Act. Further, Army Contracting Command-Warren
       stated that, contingent on GDLS-Inc. responses, the Government intended to
       perform an audit of GDLS-Canada’s billing practices.
   •   On April 25, 2013, PCO letter SJB137 was issued to notify GDLS, Inc. that based
       on a review of GDLS-Canada billings, the Government planned to perform an
       audit at GDLS-Canada. Army Contracting Command-Warren also directed

                                                21
       GDLS-Canada to provide supporting documentation that no Antideficiency Act
       violations occurred and to retroactively apply the revised corrective billing
       procedures to delivery order 0019.
   •   On May 7, 2013, PCO letter SJB139 was issued to provide GDLS, Inc. with the
       supporting documentation that the Government used to perform its analysis of
       GDLS-Canada work orders with irregular billing.

Our Response
We believe that the contractor accounting system weaknesses could potentially
misrepresent actual historical material consumption costs, which are relied upon for
budget planning. We agree with the Deputy PEO that budget planning is based on actual
historical material consumption, but the costs associated with the material consumption is
an integral part of planning the budget for future years. Each Stryker sustainment effort
was executed under a distinct budget which was based on historical material consumption
cost. Our report identified that the contractor did not appropriately charge the contract to
backfill for consumed materials according to the sustainment effort and fiscal year under
which material was actually consumed; therefore, the misallocated costs of backfilling for
the consumed material may not provide a reliable historical baseline for future budgets.

Recommendations, Management Comments, and
Our Response
1. We recommend that the Director, Defense Procurement and Acquisition Policy,
continue to negotiate and finalize a reciprocal agreement between the U.S. and
Canadian governments for U.S. prime contracts and subcontracts with Canadian
companies that allows Public Works and Government Services, Canada to perform
audit support services to include accounting system and interim voucher reviews,
but require that the audit services comply with applicable U.S. fiscal laws and
accounting standards.

Defense Procurement and Acquisition Policy Comments
The Director, DPAP agreed with the recommendation. The Director, DPAP stated that
PWGSC has agreed to negotiate a reciprocal defense procurement memorandum of
understanding that includes an annex for audit services that requires parity in priority,
timeliness, and information. However, the Director, DPAP stated that until the
agreement has been completed, effective July 1, 2013, DPAP and PWGSC have agreed
that PWGSC will resume audit services at no cost for U.S prime contracts and
subcontracts awarded directly to Canadian firms. Additionally, the Director, DPAP
stated that the interim PWGSC audit services will produce report information in parity
with DCAA audit reports.

Our Response
The Director, DPAP comments were responsive and met the intent of the
recommendation. No further comments were required.



                                            22
2. We recommend that the Director, Defense Contract Management Agency
request Public Works and Government Services, Canada, to:

       a. Review General Dynamics Land Systems-Canada accounting system for
adequacy by verifying that actual costs are tracked to the appropriate project tasks
and that interim vouchers reconcile with cost accounts based on costs that were
actually incurred during the appropriation period of availability.

        b. Develop and implement an audit plan for verifying that General
Dynamics Land Systems-Canada material cost claims comply with applicable U.S.
fiscal laws and accounting standards before the Defense Contract Audit Agency
approves the consolidated interim vouchers submitted by General Dynamics Land
Systems, Inc. for Defense Finance and Accounting Service payments.

Defense Contract Management Agency Comments
The Executive Director of Contracts, DCMA, agreed with the recommendations. The
executive director stated once the U.S. and Canadian governments finalized an agreement
for audit services that complied with applicable U.S fiscal laws and accounting standards,
DCMA would request that PWGSC perform a review of GDLS-Canada accounting
system to: 1) determine if the accounting system is acceptable based on DFARS 252.242-
7006 as a prerequisite to receiving cost type contracts; 2) verify that actual costs incurred
can be tracked to appropriate project tasks; and 3) validate that the system can reconcile
interim vouchers with cost accounts based on costs incurred during the appropriation
period of availability. Additionally, he stated that an audit review plan was necessary to
verify that material costs complied with applicable U.S. fiscal laws and accounting
standards. Further, the executive director stated that once GDLS-Canada accounting
systems is determined adequate in accordance with DFARS 252.242-7006, then DCMA
will request PWGSC to perform a post payment review on random interim vouchers to
verify the costs claimed.

Our Response
The Executive Director of Contracts, DCMA comments were responsive and met the
intent of the recommendations. No further comments were required.

3. We recommend that the Program Executive Officer, Ground Combat Systems,
direct the Project Manager, Stryker Brigade Combat Team with support from the
Director, Army Contracting Command-Warren, to:

        a. Require General Dynamics Land Systems-Canada to retroactively apply
its revised billing procedures to delivery order 0019 and apply actual costs to the
appropriate project task and reconcile actual cost to contract line item numbers
based on costs that were actually incurred during the appropriation period of
availability.

       b. Report suspected Antideficiency Act violations to the Assistant Secretary
of the Army (Financial Management and Comptroller) if the reconciliation of

                                             23
delivery order 0019 results in any apparent obligations that would exceed funds
available in a formal subdivision of fund.

Department of the Army Comments
The Deputy PEO agreed with the recommendations. The Deputy PEO stated that on
April 25, 2013, the Stryker Brigade Combat Team with support from the Director, Army
Contracting Command-Warren, directed GDLS-Canada to retroactively apply its revised
billing procedures to delivery order 0019 and apply actual costs to the appropriate project
task and reconcile actual cost to the contract line item numbers based on costs that were
actually incurred during the appropriation period of availability. He stated that on
May 22, 2013, PMO Stryker and GDLS, Inc. agreed on a specific methodology to utilize
material purchase orders to analyze the billings under delivery order 0019. The
Deputy PEO stated that, as of June 7, 2013, the reconciliation had begun and would
require the review of almost 625,000 parts, purchased on nearly 62,000 purchase orders
and billed to 131 contract line item numbers. According to the Deputy PEO, the
reconciliation is projected to be completed on August 6, 2013.

Additionally, the Deputy PEO stated that if the reconciliation of delivery order 0019
resulted in any obligations that exceeded the funds available in a formal subdivision of
funds then the Stryker Brigade Combat Team with support from the Director, Army
Contracting Command-Warren, will report any suspected Antideficiency Act violations
to the Assistant Secretary of the Army (Financial Management and Comptroller) in
accordance with DoD FMR, volume 14, chapter 3, sections 0301 and 0302. The Deputy
PEO also stated that any reporting of suspected Antideficiency Act violation would occur
no later than August 20, 2013, which is within two weeks of the completion of the
reconciliation being performed in response to recommendation 3.a.

Our Response
The Deputy PEO comments were responsive and met the intent of the recommendations.
No further comments were required.




                                            24
Appendix. Scope and Methodology
We conducted a series of three performance audits 12 from October 2010 through
May 2013 in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives.

Interviews and Documentation
We met with representatives from the Director, DPAP; Assistant Secretary of the Army
(Financial Management and Comptroller); PMO Stryker; and Director, DCMA, Warren,
Michigan. In addition, we interviewed personnel from the Army Contracting Command,
Warren, Michigan; DCAA, Sterling Heights, Michigan; GDLS, Inc. in Sterling Heights,
Michigan and GDLS-Canada in London, Ontario, Canada.

We reviewed a copy of the Stryker CLS contract W56HZV-07-D-M112 and acquisition
planning documentation from PMO Stryker, dated from June 2006 to December 2012.
Specifically, for contract W56HZV-07-D-M112, we reviewed CLS contract line items of
more than $40 million on delivery orders 0019, 0169, and 0269 which totaled
approximately $1.6 billion. Additionally, we reviewed GDLS-Canada’s purchase orders
and invoices that supported consolidated interim billing vouchers. Further, we obtained
Government disbursement data for the Stryker CLS contract from Defense Finance and
Accounting Service-Columbus as of February 2013.

We reviewed the public laws, United States Code, FAR, DoD FMR, and DFARS for
guidance related to contractor billings. We also reviewed agreements and memorandums
related to audit services performed by PWGSC issued by the Under Secretary of Defense
for Acquisition, Technology, and Logistics; PMO Stryker; and PWGSC.

We reviewed GDLS-Canada’s reimbursable cost transactions on contract
W56HZV-07-D-M112, delivery order 0019, but we were unable to analyze the
contractor’s cost to determine the scope of work and performance period in which the
cost were actually incurred because of the contractor’s accounting system limitations.




12
  We issued final reports for the previous two performance audits. The first report, DODIG-2012-102,
“Better Cost-Control Measures Are Needed on the Army’s Cost-Reimbursable Services Contract for
Logistics Support of Stryker Vehicles,” June 18, 2012, addressed contract type and performance metrics.
The second report, DODIG-2013-025, “Accountability Was Missing for Government Property Procured on
the Army’s Services Contract for Logistics Support of Stryker Vehicles,” November 30, 2012, addressed
controls over Army-owned Stryker inventory.


                                                  25
Use of Computer-Processed Data
We relied on computer-processed data from the Mechanization of Contract
Administration Services system to identify the total amount spent on CLS contract line
item numbers with obligated amounts of $40 million or more under
contract W56HZV-07-D-M112 delivery orders 0019, 0169, and 0269. The
Mechanization of Contract Administration Services system is an integrated system
supporting post award contract administration that is used by Defense Finance and
Accounting Service-Columbus to make contract payments. To assess the reliability of
Mechanization of Contract Administration Services system data, we compared the data to
GDLS interim billing vouchers. We determined that the data extracted from
Mechanization of Contract Administration Services system provided sufficient and
complete evidence that was reliable for the purposes of this report.

In addition, we relied on computer-processed data from the Electronic Document Access
system to identify the period of performance and total obligated amount for contract line
items of $40 million or more under contract W56HZV-07-D-M112 delivery orders 0019,
0169, and 0269. The Electronic Document Access system is a web-based system that
provides secure online access, storage, and retrieval of contracts and contract
modifications to authorized users throughout DoD. To assess the reliability of contract
modifications extracted from the Electronic Document Access system, we compared the
contract modifications to PMO Stryker contract files. We determined that the contract
modifications extracted from the Electronic Document Access system provided sufficient
and complete evidence that was reliable for the purposes of this report.

Prior Coverage
During the last 5 years, the Department of Defense Inspector General (DoD IG) issued
two reports related to the Army logistics support contract for the Stryker vehicle with
GDLS. Unrestricted DoD IG reports can be accessed at
http://www.dodig.mil/pubs/index.cfm.

DoD IG
Report No. DODIG-2013-025, “Accountability Was Missing for Government Property
Procured on the Army’s Services Contract for Logistics Support of Stryker Vehicles,”
November 30, 2012

Report No. DODIG-2012-102, “Better Cost-Control Measures Are Needed on the
Army’s Cost-Reimbursable Services Contract for Logistics Support of Stryker Vehicles,”
June 18, 2012




                                           26
Defense Procurement and Acquisition Policy Comments




                                 27
28
Click to add JPEG file




                 29
Department of the Army Comments




                                  30
31
        Final Report
         Reference




     On June 7, 2013, the
     Deputy PEO revised
     his response. See
     page 35.




32
33
34
35
Defense Contract Management Agency Comments




                               36
